HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, AdminaStar Federal of Kentucky, (A-07-97-01223)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, AdminaStar Federal
of Kentucky," (A-07-97-01223)
October 14, 1998
Complete Text of Report is available in PDF format
(1.03 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Medicare Contractor's
Pension Segmentation, AdminaStar Federal of Kentucky. Our review showed that
Kentucky understated Medicare segment pension assets of October 1, 1994 by $1,236,890.
The understatement primarily occurred because Kentucky did not make the correct
transfer adjustment. We recommend that Kentucky increase the October 1, 1994
assets of the Medicare segment by $1,236,890. The auditee did not provide a
response to our report.